ES, IG-99-057, A-76 Study of NASA-3 Aircraft
A-76 STUDY OF NASA-3 AIRCRAFT
IG-99-057
Executive Summary
Background
Office of Management and Budget (OMB) Circular No. A-126, "Improving the
Management and Use of Government Aircraft," May 22, 1992, requires that
Federal agencies periodically review the cost-effectiveness of their
aircraft operations in accordance with the requirements of OMB Circular
No. A-76, "Performance of Commercial Activities," August 4, 1983.  NASA
owns and operates a fleet of six mission management aircraft that are used
to transport personnel and equipment.  NASA-3 is one of the aircraft.
Office of Inspector General (OIG) Audit Report No. LA-95-001, "NASA Aircraft
Management," March 28, 1995, recommended that NASA perform the
cost-effectiveness analyses required by Circular No. A-76 to justify
retention of the mission management aircraft.  Any aircraft that cannot
be operated at a cost equal to or less than the cost of using commercial
airlines or aircraft services should be disposed of or released for other
use.  Management responded that NASA Centers would perform A-76 studies
that included use of commercial carriers.  NASA management intended to use
the A-76 study results on the NASA-3 aircraft as the basis for closing the
remaining recommendation in Audit Report No. LA-95-001.(1)
Objectives
The overall audit objective was to determine the adequacy of Marshall's
A-76 study on the NASA-3 mission management aircraft.  Specifically, we
determined:
whether the information Marshall used in the study and the study
results were reasonable;
whether Marshall adequately followed OMB Circular No. A-76 when it
prepared the study; and
whether using commercial airlines is a cost-effective alternative
to using a Government-owned, contractor-operated aircraft.
Details on our objectives, scope, and methodology are in Appendix A.
During the audit, we learned that NASA was developing plans to replace
several of the mission management aircraft, including the NASA-3 aircraft.
We conducted a limited review to determine whether NASA had completed the
necessary A-76 studies.
Results of Review
Marshall personnel exercised care in collecting and analyzing the cost
information used in the A-76 study.  However, Agency use of the NASA-3
aircraft to transport personnel and equipment did not qualify as one of
the purposes for which Federal policies authorize agencies to own or lease
aircraft (see Finding A).
As a result of advice from the General Services Administration (GSA),
Marshall did not evaluate the use of commercial airlines.  Consequently,
Marshall's A-76 study did not comply with OMB Circulars A-76 and A-126 or
meet the intent of the 1995 audit recommendation.  We estimated that the
costs for using commercial airlines is $623,000 less than the costs for
operating the NASA-3 aircraft during the first year of Marshall's A-76
study and $2.9 million (current dollars) less over the 5-year period covered
by the A-76 study.  NASA was evaluating a plan to replace three mission
management aircraft, including the NASA-3 aircraft, and to upgrade a fourth
aircraft.  Management had not yet performed an A-76 study supporting the
proposed aircraft purchase and upgrade, which would cost $43.9 million.
Since these aircraft also do not meet the criteria for agencies to own or
lease aircraft, NASA can avoid the $43.9 million dollar cost by using
commercial airlines (see Finding B).
Recommendations
NASA management should dispose of the NASA-3 aircraft and use commercial
airlines to satisfy Marshall's transportation requirements, revise Agency
policy to conform with OMB requirements, evaluate commercial airlines and
other aviation services when conducting A-76 studies for aircraft, and
terminate plans to replace the existing mission management aircraft.
Management's Response
Management nonconcurred with the recommendations to dispose of the NASA-3
aircraft and use commercial airlines, to revise Agency policy to conform
with OMB requirements, and to terminate plans to replace the existing
mission management aircraft.  Management concurred with the recommendation
to evaluate commercial airlines and other aviation services when required
in performing A-76 studies.  However, management did not identify the
specific actions to be taken.  The complete text of management's response
is in Appendix C.
Evaluation of Management's Response
We request that management reconsider its position and provide additional
comments on the report. We consider management's concurrence with the
recommendation concerning A-76 studies to be nonresponsive because no
corrective actions were identified.  Management concurred with a similar
recommendation in the 1995 audit report but has not taken acceptable action
on that recommendation.  The recommendation from our 1995 audit and all
recommendations from this 1999 report remain unresolved.  In addition to
responding to the recommendation, management provided extensive comments on
the report.  Our evaluation of those comments is in Appendix D.
FOOTNOTES
1.  George C. Marshall Space Flight Center (Marshall) prepared the A-76 study.